Audit Report




OIG-10-035
Management Letter for Fiscal Year 2009 Audit of the
Department of the Treasury’s Financial Statements


February 4, 2010




Office of
Inspector General
DEPARTMENT OF THE TREASURY
This report has been reviewed for public dissemination by the Office of Counsel
to the Inspector General. Information requiring protection from public
dissemination has been redacted from this report in accordance with the
Freedom of Information Act, 5 U.S.C. Section 552.
Information within the FISCAL YEAR 2009 COMMENTS has been
REDACTED under FOIA Exemption 2, 5 U.S.C. §552(b)(2):

FISCAL YEAR 2009 COMMENTS:
 09-07: Encryption (see pages 9 and 10)
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              February 4, 2010


            MEMORANDUM FOR DANIEL TANGHERLINI
                           ASSISTANT SECRETARY FOR MANAGEMENT
                           AND CHIEF FINANCIAL OFFICER

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009 Audit of the
                                  Department of the Treasury’s Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury’s (Department) Fiscal Year 2009 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP (KPMG), an independent certified public accounting firm, performed an audit of
            the financial statements of the Department as of September 30, 2009 and for the
            year then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, KPMG issued, and is responsible for, the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and other operational matters that were identified during the
            audit, but were not required to be included in the audit report.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Ade Bankole, Manager, Financial Audits at
            (202) 927-5329.

            Attachment
U.S. DEPARTMENT OF THE TREASURY
         FISCAL YEAR 2009
         Management Letter

         December 15, 2009
                           U.S. DEPARTMENT OF THE TREASURY
                                      Fiscal Year 2009
                                   Management Letter Report



                                        Table of Contents

                                                                                Page

Transmittal Letter                                                                 1

       09-01: Financial Reporting Standards for Treasury’s Component Entities
              (Repeat Comment)                                                     3
       09-02: Opening Balances                                                     4
       09-03: Intragovernmental Transactions and Activities                        5
       09-04: Reconciliation of the Statement of Budgetary Resources to the
              SF-133, Report on Budget Execution and Budgetary Resources           6
       09-05: Audit Logs                                                           7
       09-06: Baseline Configurations                                              8
       09-07: Encryption                                                           9


Exhibit 1 – Status of Prior Year Management Letter Comments                       11
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036


December 15, 2009

Inspector General
U.S. Department of the Treasury
Washington, D.C.

We have audited the consolidated financial statements of the U.S. Department of the Treasury
(Treasury Department) as of and for the year ended September 30, 2009, and have issued our report
thereon dated December 15, 2009. Our report indicated that we did not audit the amounts included
in the consolidated financial statements related to the Internal Revenue Service (IRS) or the Office
of Financial Stability (OFS), both component entities of the Treasury Department. The financial
statements of the IRS and the OFS were audited by another auditor whose reports were provided to
us.

In planning and performing our audit of the consolidated financial statements of the Treasury
Department in accordance with auditing standards generally accepted in the United States of
America, we considered the Treasury Department’s internal control over financial reporting
(internal control) as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Treasury Department’s internal control. Accordingly, we do not express an
opinion on the effectiveness of the Treasury Department’s internal control.
During our fiscal year (FY) 2009 audit of the Treasury Department’s consolidated financial
statements, we, and the other auditor, noted certain matters involving internal control and other
operational matters that we considered significant deficiencies under standards established by the
American Institute of Certified Public Accountants (AICPA). A deficiency in internal control exists
when the design or operation of a control does not allow management or employees, in the normal
course of performing their assigned functions, to prevent, or detect and correct misstatements on a
timely basis. A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the Treasury Department’s financial statements will not be prevented or detected
and corrected on a timely basis.
Our consideration of internal control was for the limited purpose described above and would not
necessarily identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. In our Independent Auditors’ Report dated December 15, 2009, we reported
the following significant deficiencies in the following areas involving internal control over
financial reporting:
    •   Financial Management Practices at the Departmental Level (Repeat Condition)
    •   Financial Systems and Reporting at the IRS (Repeat Condition)
    •   Financial Accounting and Reporting at the OFS
    •   Information System Controls at the Financial Management Service (FMS).




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
We consider the significant deficiencies related to Financial Systems and Reporting at the IRS and
Financial Management Practices at the Departmental Level, noted above, to be material
weaknesses. Detailed findings and recommendations to address the above significant deficiencies
are not repeated within this document.

Although not considered significant deficiencies, we noted certain matters involving internal
control and other operational matters that are presented in the attachment for your consideration.
These comments and recommendations, all of which have been discussed with the appropriate
members of the Treasury Department’s management, are intended to improve internal control or
result in other operating efficiencies. The matters presented in this letter do not include internal
control or operational matters that have been presented to the management of the Treasury
Department’s offices or operating bureaus that were audited separately by other auditors.

Exhibit 1 provides the status of the five comments included in our management letter arising from
our FY 2008 audit. We have not considered the Treasury Department’s internal control since the
date of our report.

We appreciate the courteous and professional assistance that the Treasury Department personnel
extended to us during our audit. We would be pleased to discuss these comments and
recommendations with you at any time.

The Treasury Department’s written response to our comments and recommendations has not been
subjected to the auditing procedures applied in the audit of the consolidated financial statements,
and accordingly, we express no opinion on it.

This communication is intended solely for the information and use of the management of the
Treasury Department, the Treasury Department’s Office of Inspector General, the Office of
Management and Budget (OMB), the Government Accountability Office (GAO), and Congress and
is not intended to be, and should not be, used by anyone other than these specified parties.


Very truly yours,




                                                 2
                              FISCAL YEAR 2009 COMMENTS

09-01: Financial Reporting Standards for Treasury’s Component Entities (Repeat Comment)
The Treasury Department’s consolidated financial statements are prepared in conformity with
accounting principles prescribed by the Federal Accounting Standards Advisory Board (FASAB),
the accounting standards-setting body for the Federal Government, as recognized by the AICPA in
October 1999. However, certain Treasury Department component entities prepare their financial
statements in accordance with accounting standards prescribed by the Financial Accounting
Standards Board (FASB), the private sector standards-setting body, since the FASAB has allowed
entities that issued financial statements prior to October 1999 using FASB accounting to continue
to do so. These component entities include the Bureau of Engraving and Printing, the Office of
Thrift Supervision, the Exchange Stabilization Fund, the Federal Financing Bank, and the
Community Development Financial Institutions Fund.
The use of a combination of generally accepted accounting principles (GAAP) by the Treasury
Department and its component entities complicates the preparation of the Treasury Department’s
consolidated financial statements since additional information required for Federal GAAP
reporting must be developed, mapped, and submitted to the Treasury Department’s data warehouse
by component entities, and reviewed for compliance with Federal GAAP and overall
reasonableness by the Treasury Department’s accounting management. In addition, the separately
issued financial statements of the component entities using FASB accounting principles do not
adequately portray the importance of the budgetary process as it relates to Federal entities.
Consequently, the concept of “presents fairly” for those entities does not adequately convey the
significant budgetary disclosures required by Federal GAAP.
Private sector GAAP does not contemplate budgetary reporting, and therefore, components using
this basis of accounting do not prepare the Statement of Budgetary Resources (SBR), although this
statement is an integral part of the Treasury Department’s consolidated financial statements, and
must be prepared regardless of whether or not the component receives appropriations from the U.S.
Government. Moreover, information reported in the Treasury Department’s SBR must be
reconciled to enacted amounts in the President’s budget and disclosed in the notes to the Treasury
Department’s consolidated financial statements. Considerable additional preparation is required to
develop and report this data at the Department level for components using private sector GAAP.
Additionally, private sector GAAP does not provide sufficient information regarding the costs of
programs and activities. The Statement of Net Cost required by Federal GAAP requires that costs
and offsetting earned revenues be presented by responsibility segments, with net costs identified
for each of the segments, in order to provide more meaningful information to evaluate the
operating results of major activities.
Further, inconsistencies exist in how certain costs are reported by entities using private sector
GAAP. For example, Federal GAAP requires that nonreimbursed costs paid by the Office of
Personnel Management for retirement plans be recognized by the receiving entity as an imputed
cost in order to report the full cost of operations. Since private sector GAAP does not provide




                                                3
guidance for the reporting of such imputed costs, these costs are being reported inconsistently, or
not at all, by the Treasury Department’s component entities.
This matter has been reported since FY 2004 and has not been resolved. The continued use of
private sector GAAP by certain Treasury Department component entities decreases the usefulness
of information reported by these entities for users of Federal financial statements and complicates
the preparation of the Treasury Department’s consolidated financial statements.

09-01 Recommendation
We recommend that the Treasury Department’s Chief Financial Officer (CFO), with input from the
Director, Office of Accounting and Internal Control (AIC), work with those Treasury Department
bureaus following FASB reporting standards to achieve conformance so that all reporting entities
within the Treasury Department prepare their financial statements in accordance with Federal
GAAP in order to strengthen and standardize financial accounting and reporting throughout the
Treasury Department. If a bureau is statutorily required to report on a different basis of accounting,
then a separate set of financial statements should be prepared by these entities to meet such
requirements.

Management Response
We will continue to work with those Treasury components that prepare their stand-alone financial
statements on a commercial GAAP basis in order to work towards their migration to Federal
GAAP reporting in their stand-alone statements, especially as components have the need to replace
their legacy financial systems. At the same time, we will continue to monitor FASAB’s ongoing
work on this topic. At the present time, FASAB standards allow component entities who have
historically reported on a commercial GAAP basis to continue reporting in the same manner.
However, we recognize that this situation causes several financial reporting issues at the
Departmental level.
09-02: Opening Balances
Certain opening balance differences were identified during our review of the documentation
provided in support of opening balances.      AIC did not adequately prepare supporting
documentation and review the FY 2009 opening balances.
OMB Circular No. A-123, Management’s Responsibility for Internal Control, (OMB Circular No.
A-123) states that monitoring the effectiveness of internal control should occur in the normal
course of business. In addition, periodic reviews, reconciliations, or comparisons of data should be
included as part of the regular assigned duties of personnel. Periodic assessments should be
integrated as part of management’s continuous monitoring of internal control, which should be
ingrained in the agency’s operations. If an effective continuous monitoring program is in place, it
can level the resources needed to maintain effective internal controls throughout the year.
In implementing the GAO Standards for Internal Control in the Federal Government, management
is responsible for developing the detailed policies, procedures, and practices to fit in a
Department’s operations and to ensure that they are built into an integral part of its operations.




                                                  4
Internal controls should be clearly documented in management directives, administrative policies,
or operating manuals and should be properly managed and maintained.
09-02 Recommendation
We recommend that the CFO, with input from the Director of AIC, review existing preparation and
review procedures over the opening balances analyis that is conducted annually, assess the
improvements needed, and develop procedures to address the needed improvements.
Management Response
We concur with the recommendation and will perform a review of our policies and procedures over
opening balances, including supervisory review, and make improvements for identified
weaknesses.
09-03: Intragovernmental Transactions and Activities
AIC did not fully develop and validate a comprehensive process to include effective internal
controls over the intragovernmental reporting process to ensure compliance with the Treasury
Federal Intragovernmental Transactions Accounting Policies Guide’s (TFITAPG) reporting
requirements in FY 2009.
We identified material variances in several line items in the Trading Partner balances between what
was submitted by AIC for third quarter FY 2009 into the FMS Intragovernmental Reporting and
Analysis System (IRAS) and the related intragovernmental partner and account balances in
Treasury Department’s general ledger. Specifically, we determined that not all intragovernmental
balances were submitted by AIC into IRAS as required by TFITAPG. These errors could have been
avoided had there been appropriate supervisory reviews of the data before submission.
The Treasury Department’s FMS provides detailed guidance on accounting and reconciling
intragovernmental balances in the TFITAPG. TFITAPG Section 4706.30b states, “In support of the
quarterly reconciliation process, verifying agencies must submit full proprietary adjusted trial
balances or submit, at a minimum, a trial balance that contains all their accounts with an ‘F’
attribute and the following other US Standard General Ledger (USSGL) accounts: 1010 (Fund
Balance With Treasury), 3101 (Unexpended Appropriations – Appropriations Received), and 3106
(Unexpended Appropriations – Adjustments) to FMS no later than July 23, 2009, for third quarter
fiscal 2009, and October 18, 2009, for fourth quarter fiscal 2009.”
OMB Circular No. A-123 states that monitoring the effectiveness of internal control should occur
in the normal course of business. In addition, periodic reviews and reconciliations, or comparisons
of data, should be included as part of the regular assigned duties of personnel. Periodic assessments
should be integrated as part of management’s continuous monitoring of internal control, which
should be ingrained in the agency’s operations. If an effective continuous monitoring program is in
place, it can level the resources needed to maintain effective internal controls throughout the year.
In implementing the GAO Standards for Internal Control in the Federal Government, management
is responsible for developing the detailed policies, procedures, and practices to fit in a
Department’s operations and to ensure that they are built into an integral part of its operations.




                                                 5
Internal controls should be clearly documented in management directives, administrative policies,
or operating manuals and should be properly managed and maintained.

09-03 Recommendations
We recommend that the CFO, with input from the Director of AIC:
1. Develop policies and procedures to account and appropriately report the Treasury
   Department’s intragovernmental transactions as required by FMS in compliance with
   TFITAPG.
2. Mandate supervisory reviews of intragovernmental accounting transactions and related
   underlying data to assess accuracy and reasonabless prior to reporting to FMS.

Management Response
We agree with the recommendation. We will incorporate the review of intragovernmental
transactions and balances into our overall review/updating of policies and procedures to ensure that
intragovernmental balances and transactions are properly identified and reviewed for accuracy and
completeness prior to reporting to FMS.
09-04: Reconciliation of the SBR to the SF-133, Report on Budget Execution and Budgetary
       Resources
The FY 2009 third quarter reconciliation of the SF 133, Report on Budget Execution and
Budgetary Resources (SF 133), to the unaudited third quarter SBR reconciliation for comparable
line items was not completed until September 2009.
The Treasury Department does not have policies in existence to require the timely completion of
these budgetary reconciliations, which could cause material differences requiring correction
between the SF 133 and the SBR. As a result, amounts reported on the SBR may be misstated. In
addition, the Treasury Department is not in compliance with reconciliation and reporting
requirements prescribed by OMB Circular No. A-136, Financial Reporting Requirements (OMB
Circular No. A-136).
OMB Circular No. A-136, Section II.4.6.1, states, “Information on the SBR should be reconcilable
to the budget execution information reported on the SF 133 Report on Budget Execution and
Budgetary Resources and with information reported in the Budget of the United States Government
to ensure the integrity of the numbers presented…Consistency between budgetary information
presented in the financial statements and the Budget of the United States Government is critical to
ensure the integrity of the numbers presented. The FACTS II helps to ensure the consistency of
data. The FACTS II data submitted by agencies are USSGL-based trial balances, which are used to
populate the SF 133 and the actual column of the Program and Financing Schedule of the Budget.”
OMB Circular No. A-136, Sections II.4.6.5, 6, and 8 state, “The resources reported on this
statement shall agree with, and be reconciled to, the total budgetary resources reported for the
aggregate of all budget accounts on the SF 133... The status of budgetary resources reported on this
statement shall agree with, and be reconciled to, the total status reported for the aggregate of all
budget accounts on the SF 133...The outlays shall also agree with, and be reconciled to, the




                                                 6
aggregate of outlays reported on the SF 133 for the aggregate of all budget accounts, including
nonbudgetary financing accounts and the disbursements and collections reported to the Treasury
Department on a monthly basis (SF 224, Statement of Transactions; SF 1219, Statement of
Accountability; and SF 1220 Statement of Transactions) per Circular No. A-11.”
OMB Circular No. A-136, Section IV.3, indicates that “Agencies are required to submit an analysis
of material differences between the current quarter’s unaudited SBR and the current quarter’s
department-wide SF 133, Report on Budget Execution and Budgetary Resources. Agencies should
reconcile the two reports; however, agencies are only required to provide to OMB an explanation
for the material differences between the SBR and SF 133 for comparable line items related to
budgetary resources, obligations, and outlays.”
09-04 Recommendation
We recommend that the CFO, with input from the Director of AIC, strengthen current policies and
procedures related to its quarterly SF 133 to SBR reconciliations to require timely quarterly
reconciliations to be prepared and documented, including completion of supervisory review, so that
explanations for any material differences between the SBR and SF 133 for comparable line items
are provided to OMB timely.

Management Response
We agree with the recommendation. The current Standard Operating Procedures (SOP) for
Reconciliation of Budget Execution Data will be reviewed and updated as necessary to incorporate
any additional documentation requirements, to clarify timelines, and to include provision for a
robust review by Treasury officials to support the SF-133/SBR Reconciliation. Quarterly
reconciliations of the FACTS II data and SBR are completed and are identified both in the Office
of Performance Budgeting (OPB) execution timeline and in the SOP, as are periodic reconciliations
of the SF-133 data and the SBR. OPB Management has filled the Budget Execution Team Lead
position, which will provide for regular supervisory review of reconciliations and other budget
execution reports and increased emphasis on timeliness and accuracy. In addition, an automated
tool to populate the data from the SBR and SF-133 into the reconciliation worksheet was developed
to assist in the reconciliation. This tool should improve the timeliness of the reconciliation.

09-05: Audit Logs
Currently, a database administrator (DBA) of the system is performing the review of the audit logs
for the Oracle database that supports the Treasury Department’s Information Executive Repository
(TIER), which creates an issue with segregation of duties, and in addition, there is no evidence of
review of the Oracle audit logs. The Treasury Department also has not documented who should
review the audit logs to ensure there is not a conflict of interest or require evidence to support the
review of the audit logs.
The lack of monitoring by a designated individual who is independent of the operation of TIER
makes it difficult for the DBA and System Owner to protect TIER against security and
infrastructure vulnerabilities and hold individual users accountable for system activities. When
audit logs are not reviewed independently, and are not supported with evidence of a review by the




                                                  7
designated individual, suspicious activities may go undetected, leading to the compromise of TIER
data. In addition, unauthorized disclosure or changes to TIER may go undetected, compromising
the confidentiality and integrity of the data.
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-12, An
Introduction to Computer Security, Section 9.4.2.1, Review of System Logs, states that “a periodic
review of system-generated logs can detect security problems, including attempts to exceed access
authority.” Section 18.3.2, Review of Audit Logs, states, “Application owners, data owners, system
administrators, data processing function managers, and computer security managers should
determine how much review of audit trail records is necessary, based on the importance of
identifying unauthorized activities. This determination should have a direct correlation to the
frequency of periodic reviews of audit trail data.”
NIST SP 800-53, Recommended Security Controls for Federal Information Systems (NIST SP 800-
53), Control AU-6, Audit Monitoring, Analysis, and Reporting, states, “The organization regularly
reviews/analyzes information system audit records for indications of inappropriate or unusual
activity, investigates suspicious activity or suspected violations, reports findings to appropriate
officials, and takes necessary actions.”
NIST SP 800-53, Control AU-11, Audit Record Retention, states, “The organization retains audit
records [Assignment: organization-defined time period] to provide support for after-the-fact
investigations of security incidents and to meet regulatory and organizational information retention
requirements.”

09-05 Recommendations

We recommend that the Chief Information Officer (CIO), with input from the Office of the Deputy
Chief Financial Officer (DCFO):

1. Assign an individual other than the DBA to perform a review of the audit logs, or implement
   mitigating controls if the DBA has to perform the review such as System Owner or
   Management reviews.
2. Maintain evidence of the audit log reviews for the Oracle database.

Management Response
We agree with the recommendations to enhance audit log reviews. The Department believes that
reviewing the audit logs is an integral part of the DBA’s role. Therefore, the DBA will continue to
monitor the logs to identify any unusual or suspicious activities. In addition, a second party will
review the audit logs on a periodic basis to provide an independent review. DCFO and CIO
Offices will develop a corrective action plan that will implement segregation of duties in the review
of audit logs and provide evidence that logs have been appropriately reviewed.

09-06: Baseline Configurations
The Treasury Department does not currently have the baseline configurations documented for the
production servers that support TIER and CFO Vision in the system security plan. The Treasury




                                                 8
Department’s management was not aware that they needed to document their standard baseline
configuration for the production servers of TIER and CFO Vision.
Without properly implemented baseline configurations, systems may not be updated properly with
needed patches and upgrades. Insecure system configurations may expose security weaknesses,
provide enticement information to a malicious user, provide access to remote users, and allow users
to replace, retrieve, or modify sensitive data.
The Treasury Department’s Information Technology Security Program, Treasury Directive
Publication 85-01, Section 3.5, Security Configuration and Vulnerability Management Policy,
states, “Bureaus shall develop and implement Configuration, Vulnerability, and Patch Management
plans for all of their IT systems and networks.”
NIST SP 800-53, Control CM-2, states, “The organization develops, documents, and maintains a
current baseline configuration of the information system.”
NIST SP 800-53, Control CM-6, states, “The organization: (i) establishes mandatory configuration
settings for information technology products employed within the information system;
(ii) configures the security settings of information technology products to the most restrictive mode
consistent with operational requirements; (iii) documents the configuration settings; and
(iv) enforces the configuration settings in all components of the information system.”

09-06: Recommendations
We recommend that the CIO, with input from the DCFO:
    (1) Formally document the baseline configuration for the production servers of TIER and CFO
        Vision.
    (2) Assess compliance with the baseline configuration on an annual basis, at a minimum.

Management Response
We agree with the recommendation. The CIO’s Office has developed a baseline configuration for
the FARS server environment and will update the System Security Plan during the upcoming 2010
document update. On at least an annual basis, Treasury will conduct a system test to assess the
baseline configuration and document any variances to the baseline.
09-07: Encryption
User sessions                                     are not encrypted using Secure Sockets Layer
(SSL). The Treasury Department’s management did not completely enforce the security
requirements that require the use of SSL when accessing                     , and the Treasury
Department did not have an effective monitoring process established to ensure compliance with
their minimum security controls. Without the use of SSL, users’ logon credentials could be
compromised. If a user’s logon credentials were compromised, unauthorized access
            could occur.
FARS System Security Plan, Control SC-13, Use of Cryptography, states that the SSL should be
used for the               applications.




                                                 9
NIST SP 800-46, Security for Telecommuting and Broadband Communications, Section 5.7, states,
“Encryption is important for both data transmission and data storage. Encryption is critical for
transmission whenever sensitive data is being transmitted over an insecure network such as the
Internet. Encryption is important for storage whenever the data is subject to compromise.”
09-07 Recommendation
We recommend that the CIO, with input from the Office of the DCFO, implement the use of SSL
for the               applications.
Management Response
We agree with the recommendation. The Department will implement Transport Layer Security
(TSL) to provide data encryption for the             applications. It is anticipated that this
implementation will be completed during the second quarter of fiscal year 2010.




                                              10
                                                                                   EXHIBIT 1

                        U.S. DEPARTMENT OF THE TREASURY
                                       Fiscal Year 2009
                                   Management Letter Report
                      Status of Prior Year Management Letter Comments



Prior Year Comments                                 Current Year Status

08-01   President’s Budget Reconciliation (Repeat   This comment has not been corrected and is
        Comment)                                    included in the FY 2009 Audit Report on the
                                                    Treasury Department’s financial statements
                                                    as a significant deficiency that formed part of
                                                    the material weakness titled “Financial
                                                    Management Practices at the Departmental
                                                    Level (Repeat Condition).”
08-02   Financial Reporting Standards for           This comment has not been corrected and is
        Treasury’s Component Entities (Repeat       repeated in the current year as comment
        Comment)                                    09-01.
08-03   Mortgage-backed Securities (MBS)            This comment has been corrected.
        Purchase Reconciliations
08-04   Disaster Recovery Procedures (Repeat        This comment has been corrected.
        Comment)
08-05   Database-level User Access                  This comment has been corrected.




                                            11
